<html>
<title> - OVERSIGHT OF DEPARTMENT OF JUSTICE GRANT PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








           OVERSIGHT OF DEPARTMENT OF JUSTICE GRANT PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2017

                               __________

                           Serial No. 115-18

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








      Available via the World Wide Web: http://judiciary.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-070                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland


















                            C O N T E N T S

                              ----------                              

                              June 8, 2017

                           Opening Statements

                                                                   Page
The Honorable Louie Gohmert, Texas, Subcommittee on Crime, 
  Terrorism, Homeland Security, and Investigations; Committee on 
  the Judiciary..................................................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations; Committee on the Judiciary**...................     3
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     5
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     6

                               Witnesses

Mr. Alan Hanson, Acting Assistant Attorney General, Office of 
  Justice Grant Programs, Department of Justice
    Oral Statement...............................................     8

              Additional Material Submitted for the Record

Material submitted by the Honorable John Conyers, Jr., Ranking Member, 
    Committee on the Judiciary. This material is available at the 
    Committee and can be accessed on the committee repository at:

http://docs.house.gov/meetings/JU/JU08/20170608/106070/HHRG-115-JU08-
20170608-SD002.pdf

 
           OVERSIGHT OF DEPARTMENT OF JUSTICE GRANT PROGRAMS

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                        House of Representatives

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Louie Gohmert 
[vice chairman of the subcommittee] presiding.
    Present: Representatives Gohmert, Goodlatte, Sensenbrenner, 
Chabot, Ratcliffe, Roby, Johnson of Louisiana, Jackson Lee, 
Conyers, Jeffries, and Lieu.
    Staff Present: Margaret Barr, Counsel; Stephanie Gadbois, 
Counsel; Scott Johnson, Clerk, and Joe Graupensperger, Minority 
Counsel.
    Mr. Gohmert. The Subcommittee on Crime, Terrorism, Homeland 
security, and Investigations will come to order. Without 
objection, the chair is authorized to declare recess of the 
subcommittee at any time. We welcome you to today's hearing.
    This is the hearing that will not be disappointing to all 
of the country. This is the hearing that has not been overhyped 
and we expect to get some substance out today, Mr. Hanson. So, 
we are actually looking forward to this. This is entitled 
Oversight of the Department of Justice Grant Programs. And I 
recognize myself for an opening statement.
    Thank you to all of those in attendance to today's hearing, 
as well as our distinguished witness, Mr. Alan Hanson, 
testifying on behalf of the Department of Justice. This 
morning's hearing is the fourth in a series of hearings held by 
this committee, examining Department of Justice components, 
programs, and activities. The ultimate goal of these hearings 
is to reform and reauthorize, in some cases authorize for the 
very first time, important components of the Department of 
Justice.
    Grants administered by the DOJ help communities across the 
United States fight crime, address domestic violence and sexual 
assault, and provide their officers with the tools and skills 
they need to do their job. Approximately $2 billion is 
appropriated by Congress each year to fund DOJ State and local 
law enforcement activities. As with any government service, 
Congress must periodically review these grants to ensure they 
are working as intended and use taxpayer dollars wisely and 
efficiently.
    Today, this subcommittee will examine DOJ grant programs 
administered by the Office of Justice Programs, the Office of 
Violence Against Women, and the Office of Community Oriented 
Policing Services.
    The Office of Justice Programs, or OJP, administers grants 
that provide leadership support to Federal, State, local, and 
tribal justice systems by sharing the latest knowledge and 
practices with these agencies and communities. Grants 
administered address areas of need and research statistics, law 
enforcement assistance at the State and local level, and 
support for juvenile justice programs. The Office for Victims 
of Crime, which is tasked with administering the Crimes Victim 
Fund, is also a part of OJP.
    The Office of Violence Against Women administers programs 
authorized by the Violence Against Women Act. Approximately 
twenty five grant programs are authorized by that legislation 
with the goal of strengthening services to victims of domestic 
violence and sexual assault while holding offenders 
accountable.
    The Office of Community Oriented Policing Services, or COPS 
Office, provides information and grant resources to State, 
local, territorial, and tribal law enforcement agencies 
throughout the Nation.
    Some of the work supported by the COPS Office grants 
include developing innovative crime-fighting and policing 
strategies, providing training and technical assistance to both 
law enforcement and community members, and assisting in the 
hiring of community policing professionals.
    During my time as judge, I have worked with thousands of 
police officials with a variety of background and experience. 
The overwhelming majority of them embrace the idea of building 
good relationships in high crime communities to address the 
underlying conditions that contribute to the crimes.
    Two programs worthy of note include Anti-Heroin Task Force, 
the AHTF program, and the COPS Anti-Gang Initiative. The Nation 
is facing an epidemic amount of opioid and drug abuse, 
including heroin, the way it has come back, that has been 
indiscriminate in its effect and devastation. Americans from 
all walks of life and social status have been directly affected 
by the epidemic, whether personally became addicted or had 
friends or family members who have lost their lives.
    The Anti-Heroin Task Force has worked to advance public 
safety by getting these toxic drugs off our streets and out of 
our communities. Anti-Gang Initiative works hand in hand with 
these efforts by prosecuting the gangs that pedal these drugs. 
While many of these grant programs help create a positive 
impact in our communities on a daily basis, not all of the 
DOJ's spending is as efficient as it should be.
    Recent GAO investigations have targeted the mismanagement 
of Federal resources and identified multiple programs that 
include duplication and overlap of these DOJ grant programs. 
For example, in 2012, GAO reviewed all 253 grant award 
announcements that OJP, OVW, and the COPS Office published on 
their websites for fiscal year 2010 and identified instances of 
overlap across the components.
    When GAO participated in the Judiciary Committee's DOJ 
oversight hearing March 21st of this year, Director Maurer 
testified the DOJ had implemented most of GAO's recommendations 
to improve grant administration and management. However, a 
cursory review of the long list of programs currently being 
administered by DOJ suggests that more streamlining is likely 
warranted. DOJ budget requests a $6 million increase to support 
the grants management system 2.0 initiative. So, we are 
interested in hearing about potential improvements of 
efficiency, transparency of DOJs grant making sections.
    President Trump has made clear that reducing violent crime 
in our communities is a top priority for his administration. 
Attorney General Sessions has already taken important steps 
toward reaching that goal. It is contended DOJ grant programs 
are an important tool in fighting crime. If so, it is vital 
they work as efficiently as possible. And with that in mind, I 
am looking forward to hearing the testimony today. The chair 
now recognizes the ranking member of the Crime Subcommittee, 
Ms. Jackson Lee of Texas, for an opening statement.
    Ms. Jackson Lee. Let me thank the chairman. Good morning. 
As well as thank the witness, Mr. Hanson, for your service to 
the Nation, and also let me pleasantly recognize the ranking 
member of the full committee, recognize the chairman of the 
full committee, and appreciate that the ranking member will be 
in place for me.
    And I thank him for his extended courtesies because I have 
a conflicting hearing. Mr. Chairman, I think that we have many 
opportunities to work together on this committee, and we have 
done so over the years. And I am delighted that you have 
mentioned, certainly, some of the issues that we all have 
concern with.
    And I think we do have concern with the efficient operation 
of the Department of Justice that I have always called the 
anchor and the source of assistance for the vulnerable, but 
also for upholding the law of the land and protecting the 
American citizens. But then, when they need justice and they 
need fairness and relief from those who would undermine them, 
the Justice Department is there for them in a myriad of ways.
    Each of us on this panel, regardless of party, are 
committed to eliminating wasteful spending, unnecessary 
duplication in funding pursuant to Federal grant programs. 
However, as I indicated, there are many programs that may have 
the perception as such, but are vital to many constituents 
across the Nation. Given that the Department administers grants 
that award recipients with $5 billion per year without 
exception, accountability is paramount to ensure the grants are 
not being used for fraudulent purposes. That is why we have 
auditing requirements and reviews by the Office of the 
Inspector General. And as acting assistant attorney general of 
the OJP, it is Mr. Hanson's responsibility to oversee 
compliance with these goals. I assume you work hard every day.
    As we consider today the findings of the DOJ's OIG with 
respect to various Justice Department grant programs, there are 
several factors we should keep in mind.
    First of all, though I am disappointed to learn that OJP's 
Tribal Justice System Infrastructure failed to meet various 
auditing standards due to deficiencies between OJP and BJA, 
resulting in significant waste, I am heartened that it has 
undertaken proposed remedial actions to address these findings. 
That program is well-needed and is often heard by our Native 
American friends of the status that they hold and the belief 
that they do not hold the same respect and dignity of all other 
Americans.
    Specifically, OJP has agreed with all of OIG's 12 
recommendations made in its auditing. Identifying these 
deficiencies and detecting fraud, we hope that we will be 
moving forward.
    Second, the recent semi-annual report to Congress indicates 
that OIG audited additional programs, such as D.C.'s Office of 
Victim Services and Justice Grants and Iowa Tribe of Oklahoma, 
which support investigation and prosecution of child sexual 
abuse. OIG did not identify any significant concerns, and we 
hope these programs are on schedule. Several other programs 
fell into these criteria, and therefore, we hope that many of 
these grant programs that are vital to the success of the 
criminal justice system do, in fact, work, are effective, and I 
would like to make sure that they are in place.
    Let's take, for example, Houston. I am pleased that my 
constituents and those of Ranking Member Conyers were the first 
to be awarded the National Institute of Justice research grants 
to address untested Sexual assault kits. SAK, also known as 
rape kits, used in Texas, received $176,000 in fiscal year 
2010, which remained in place for a number of years.
    These are vital grants to be able to stop the terrible 
results of untested rape kits and leaving many women across 
America without justice. Those rape kits recognize and 
represent criminal justice. Therefore, it is critical that we 
examine cautiously the beneficial impact these grant programs 
have on the lives of the American people and the adverse effect 
that it will trigger.
    We arbitrarily cut much-needed programs due to 
deficiencies. Although OIG did not find evidence of endemic 
fraud or rampant non-compliance across the spectrum, 29 percent 
cut is proposed in the President's new budget for the Office of 
Justice Programs. And the vast majority of the recipients of 
grants administered through the Office of Justice Programs, 
such as the Bureau of Justice, Office of Juvenile Justice and 
Delinquency, just to name a few.
    And, of course, the essential grants are administered 
through the Office of Violence Against Women. These are needed. 
Mr. Hanson, it was also indicated in your testimony, and we 
agree that the Nation's overall rate of violent crime remains 
historically low. However, the fiscal year 2018 budget release 
shows a substantial increase for prosecution and support for 
robust law enforcement.
    Finally, I must remind my colleagues, that efforts to 
ensure that grant recipients are accountable stewards of 
taxpayer subsidy should not be used to eliminate these crucial 
programs. Now, I believe that we are helping so many different 
people across the Nation, and I want us to continue to be in 
this August room where justice is rendered.
    This has been a tumultuous couple of months. This is a 
justice committee, and I would hope that, as we proceed with a 
number of hearings and investigations that are proceeding in 
the United States Senate and in the House, that we would find 
it upon ourselves that there would be a courageous effort to 
begin to assess what kind of end route we should be making on 
any number of questions from public trust to use of power to 
the issues that have gathered around the question of 
obstruction of justice.
    I think that we are courageous Republicans and Democrats to 
do the right thing for the American people. And I hope that we 
will do the right thing for the American people. It is time 
that we begin an inquiry on all of these issues that are 
involving the executive and administration. With that, I yield 
back.
    Mr. Gohmert. At this time, the chair will now recognize the 
chairman of the full committee, Mr. Goodlatte of Virginia, for 
his opening statement.
    Chairman Goodlatte. Well, thank you, Mr. Chairman. This 
hearing is the fourth hearing in the Judiciary Committee's 
series of hearings to review Department of Justice components, 
programs, and activities and identify matters at the Department 
of Justice that are in need of reform and reauthorization. It 
is my hope that this hearing also underscores the importance of 
having distinct and detailed authority in place for each DOJ 
grant program funded by Congress.
    Congress appropriates roughly $2 billion annually to the 
Department of Justice for its grant programs. In addition, in 
recent years, DOJ has administered an additional $2 to $3 
billion annually in grant funding through the Crime Victims 
Fund. The valuable Crime Victims Fund resources are available 
to provide victim compensation assistance and other services 
that improve community's responsiveness to the needs of 
victims.
    Many of DOJ's grant programs support critical efforts to 
prevent, investigate, and prosecute crime. For example, funding 
Congress provides for economic, high technology, and white-
collar crime prevention grants has helped the National White 
Collar Crime Center in Richmond, Virginia deliver training in 
computer forensics, cyber, and financial crime investigations, 
and intelligence analysis to law enforcement agencies to all 50 
States. Such efforts provide critical national leadership and 
strengthen the Nation's law enforcement networks as a whole.
    Another success story is the funding Congress has provided 
for regional information sharing activities like the RISS 
program. RISS offers secure information sharing and 
communications capabilities, analytical and investigative 
support services, and event de-confliction services to enhance 
officer safety.
    It supports efforts to defeat organized and violent crime, 
drug activity, violent extremism, human trafficking, and other 
national scourges across jurisdictions and regions. While there 
are many Federal programs with laudable goals, the truth is 
that the Federal government simply cannot sustain its current 
path of deficit spending. As such, Congress must take tough 
decisions among priorities at all agencies.
    Just 7 years ago, Congress appropriated 50 percent more 
funding for DOJ grants than it did in the fiscal year 2017 
omnibus appropriations bill enacted in early May of this year. 
In order to make the necessary priorities, we must have a full 
picture of all the grant spending. Complicating the picture for 
DOJ grants is a lack of specific authorization for much of the 
grant funding. Of the approximately 90 distinct appropriations 
for grant programs in fiscal year 2017, roughly 70 percent are 
not currently authorized by the Judiciary Committee.
    Of those, approximately 42 percent have never been 
authorized by the Judiciary Committee. It is imperative that 
Congress be apprised of the fundamental parameters of these 
programs. We need to learn who is eligible, what the grant 
awards look like, what percentage of appropriated funding is 
actually distributed to grantees, and what DOJ permits the 
funds to be spent on.
    Last but not least, we need to understand the purpose of 
these unauthorized programs, determine whether they are 
achieving the established goals, and assess whether the 
Department's goals align with the Judiciary Committee's 
priorities. Once the committee evaluates these programs, I 
intend to oversee the advancement of congressional authority 
for the most worthy programs.
    This hearing may also review the use of the Crime Victims 
Fund. The Crime Victims Fund was established in 1984 by the 
Victims of Crime Act, also known as VOCA, to provide funding 
for State victim compensation and assistance programs. The 
Crime Victims Fund does not receive appropriated funding. 
Rather, deposits to the Crime Victims Fund come from a number 
of sources, including criminal fines, forfeited bail bonds, 
penalties, and special assessments. For fiscal year 2018, $610 
million, more than 30 percent of the nearly $2 billion allotted 
under DOJ's budget submission for discretionary grants, is 
proposed to be supported by a transfer of mandatory budget 
authority from the Crime Victims Fund. I look forward to 
hearing DOJ's justification for this request, which is the 
continuation of an effort that began under the past 
administration.
    In the course of the Judiciary Committee's comprehensive 
review of DOJ programs and components, it will be appropriate 
to consider whether the Crime Victims Fund's annual allocation 
formula should be updated. In the meantime, I will expect DOJ 
to consult with the Appropriations Committees on when and if it 
is ever appropriate to subvert the Crime Victims Fund 
allocation formula in order to make up for discretionary 
appropriation shortfalls. I thank all of you for joining us 
today. I especially thank Mr. Hanson, and I look forward to 
your testimony.
    Mr. Gohmert. Thanks, Chairman. At this time, the chair 
recognizes Judiciary Committee ranking member and recognize you 
to give an opening statement.
    Mr. Conyers. Thank you, Judge Chairman, and to our chairman 
of the full committee, Mr. Goodlatte; it is a pleasure for us 
to come here today to listen to the acting assistant attorney 
general, Mr. Alan Hanson, of the Office of Justice Programs. We 
welcome you to this discussion today, and we want to examine 
the grant programs administered by the Department of Justice.
    Certainly, it is appropriate that we conduct regular 
oversight of the various programs, their administration, and 
their implementation, both because of the amount of funding 
involved and because of the important role they play in helping 
to make us all safer from crime.
    In total, the Department administers grants that award more 
than $5 billion per year. These grants are critical to the 
ability of recipients, including State, local, and tribal 
governments, to engage in the full range of activities 
necessary to prevent crime and to investigate crimes that do 
take place and to hold offenders accountable and to reduce 
recidivism and, most importantly, prepare ex-offenders for 
reentry into their communities after they have served their 
sentences.
    Grant funding also helps provide some measure of assistance 
to crime victims who need and deserve help after being harmed. 
I will mention just a few of these programs to illustrate the 
range of their impact.
    Grant funding under the Violence Against Women Act 
established in 1994 has been critical to improving our Nation's 
response to intimate partner violence, sexual assault, and 
stalking. Then there is the COPS Hiring Program also 
established in 1994, which has helped over 13,000 State, local, 
and tribal law enforcement agencies hire over 129 police 
officers and deputy sheriffs.
    In my district in Michigan, the Department's grants include 
funding from the Sexual Assault Kit Initiative, and they have 
helped Detroit address its backlog of untested sexual assault 
kits and match samples with offenders whose DNA is contained in 
the FBI's database. The Second Chance Act, a bipartisan program 
enacted more than a decade ago, has helped State and local 
governments focus resources on programs that have been proven 
to reduce recidivism and make us safer by helping ex-offenders 
successfully reintegrate into society after incarceration, most 
important. In fact, just today, the Justice Center of the 
Council of State Governments is issuing a report entitled 
``Reducing Recidivism: States Deliver Results.'' And I ask 
unanimous consent that this report be entered into the hearing 
record.
    [This material is available at the Committee and can be 
accessed on the committee repository at: http://docs.house.gov/
meetings/JU/JU08/20170608/106070/HHRG-115-JU08-20170608-
SD002.pdf]
    Mr. Conyers. Thank you. The report highlights the results 
in seven States in which recidivism has decreased according to 
several different measures. These States, including my State of 
Michigan, have all received significant Second Chance Act 
funding. Clearly, this program works, and we must continue to 
support it.
    And just last year, this committee worked in a bipartisan 
manner to enact the comprehensive Addiction and Recovery Act 
programs that will target funding to help prevent and address 
our heroin and opioid drug crisis.
    Mr. Chairman, and my colleagues that are here, our State, 
local, and tribal governments need our help. And our work to 
give it to them has been successful. For more than 25 years, 
the tide of crime and violence has receded. While yearly 
statistics can vary and some cities may not always experience 
the same success as the national trend during a given period of 
time, overall, crime is about half of what it was at its peak 
in 1991.
    Violent crime has plummeted by 51 percent. And property 
crime has fallen by 43 percent, and homicides are down 54 
percent. Providing an array of grants, some that are more 
general in scope and others that are more focused on particular 
techniques or problems, has been critical to a multifaceted, 
successful strategy to fight crime.
    And so, that is why we conduct oversight here today. Going 
forward, we have the opportunity to both maintain and improve 
our grant programs. And I look forward to the continued 
success. I thank you, Mr. Chairman, and I yield back if there 
is any time remaining.
    Mr. Gohmert. I thank the ranking member. At this time, we 
will begin by swearing in our witness. So, if you would, Mr. 
Hanson, please rise.
    Raise your right hand. Do you solemnly swear that the 
testimony you are about to give will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    You may be seated. Let the record reflect the witness 
responded in the affirmative.
    Our witness, Mr. Alan Hanson, who currently serves as the 
acting assistant attorney general for the Department of 
Justice's Office of Justice Programs. Prior to the Department 
of Justice, Mr. Hanson worked in a variety of roles on Capitol 
Hill. Most recently, Mr. Hanson worked for Senator Richard 
Shelby, where he served as general counsel and chief of staff. 
Mr. Hanson also gained congressional policy and political 
experience in his previous roles as a legislative director for 
not only Senator Shelby, but Senator Jeff Sessions, a name that 
rings a bell, and Congresswoman Anne Northrup.
    Mr. Hanson received a bachelor's degree from Vanderbilt 
University, part of the Southeastern Conference, and earned his 
J.D. degree from Georgetown University.
    The witness' statement will be entered into the record in 
its entirety. We just ask that the witness summarizes his 
testimony in 5 minutes or less. To help you stay within that 
time, there is a light in front of you. And with 1 minute to 
go, it moves to yellow to alert you there is a minute left. And 
when the light turns red, that is the indication that the time 
is expired.
    I now recognize our first and only witness, Mr. Hanson. I 
am going to have to step out for a moment, and Mr. Johnson is 
going to temporarily chair. But I have reviewed your written 
statement, and I look forward to hearing from you further. Mr. 
Hanson, you are recognized for 5 minutes.

 STATEMENT OF ALAN HANSON, ACTING ASSISTANT ATTORNEY GENERAL, 
       OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE

    Mr. Hanson. Thank you, Congressman Gohmert. Thank you to 
Ranking Member Jackson Lee; thank you to Chairman Goodlatte, 
and to Ranking Member Conyers, and other members of the 
subcommittee for having me here to testify this morning. It is 
a privilege to be here to discuss the work of my office, the 
Office of Justice Programs, as well as the work of the Office 
of Community Oriented Policing Services, and the Office on 
Violence Against Women.
    Let me say, first of all, I am very pleased to see some of 
my former colleagues here today. Before taking my current 
position as head of OJP, I spent more than 17 years working for 
members of Congress in both the House and the Senate. I fully 
appreciate that magnitude of your responsibility, and I share 
your commitment to ensuring that federally-funded programs are 
well managed and responsive to local needs.
    Under the leadership of Attorney General Sessions, the 
Department of Justice is working diligently to fulfill its 
original core mission, which is to uphold the rule of law and 
ensure that justice if administered fairly and effectively. As 
you are aware, OJP, OVW, and the COPS Office award a wide range 
of grants and cooperative agreements to support local, State, 
and tribal law enforcement, criminal and juvenile justice 
agencies, and victim service programs. These funds have proven 
to be critical to ensuring public safety in America.
    But we do much more. We provide training and technical 
assistance; we fund research; we develop technology; we gather 
statistics; and we distribute information to help justice 
system professionals do their jobs better. Using all the 
resources Congress has given us, we are working hard to reduce 
crime and violence and protect our communities.
    Empowered by an executive order from President Trump, the 
Attorney General established a task force on crime reduction 
and public safety to address the law and order challenges 
facing our country. Each of the Department's grant-making 
offices is playing a key role.
    Later this month, under the auspices of this task force, we 
will host a National Crime Reduction Summit where we bring in 
law enforcement experts, victim assistance organizations, 
community groups, and researchers who share information about 
local crime-fighting efforts and to map out strategies for 
reducing crime. The President's budget request for fiscal year 
2018 offers another clear signal of this administration's 
commitment to public safety.
    His request includes $70 million for a block grants program 
for Project Safe Neighborhoods, which would create Federal, 
State, local, and tribal partnerships to reduce gang and gun 
crime. Another $5 million would go to a DOJ-wide program 
targeting cities with high rates of violence.
    We are also working to fight the threat imposed by illicit 
drugs, especially opioids. We know the dangers they pose both 
to our citizens and to our law enforcement professionals. That 
is why the President's budget asks for $20 million for a new, 
comprehensive opioid abuse program, another $80 million to 
support drug courts and other substance abuse programs. Of 
course, the safety of our communities is utterly dependent on 
the skill, commitment, and, not least, the well-being of our 
law enforcement officers.
    These officers put their lives on the line every day. They 
deserve to know we have their back. The President has made his 
commitment to America's public safety officers very clear. One 
of his earliest actions was to sign an executive order 
directing the Justice Department to develop a strategy to 
reduce violence against law enforcement.
    His budget request proposes substantial investments in our 
Bulletproof Vest Partnership program and in resilience training 
available through our Bauer Initiative. We are also 
demonstrating a solid commitment to officer wellness research 
and the Body Armor Standards and Testing Program managed by our 
National Institute of Justice. The COPS Office is, of course, 
central to the Department's officer safety and violent crime 
reduction efforts. COPS programs have supported more than 
13,000 of the Nation's 18,000 law enforcement agencies. Up to 
$27 million under the COPS Hiring Program will be available 
this year to help jurisdictions fight violent crime and address 
other high-priority local concerns. And $157 million is 
proposed in the President's fiscal year 2018 budget for law 
enforcement hiring.
    Finally, as we deal with the scourge of gun, gang, and drug 
violence, we are also fighting to reduce domestic violence, 
sexual assault, dating violence, and stalking. Our Office on 
Violence Against Women funds hundreds of law enforcement 
officers and prosecutors who enforce protection orders, try 
sexual assault cases, and bring perpetrators or these crimes to 
justice. And OVW's grant-funded program serves some 650,000 
victims every year.
    We propose to build on this record of success. The 
President's budget request for OVW includes $480 million to 
reduce crime, help victims, reach all affected communities, and 
promote evidence-based practices. Between the Department's 
three grant-making offices, we are helping to lead an 
aggressive, preemptive attack on the crime and violence 
creeping into too many of our neighborhoods while guarding 
against waste, fraud, and abuse of taxpayer dollars.
    I have given a brief, but I hope compelling, account of the 
Justice Department's work to fight crime, serve victims, and 
protect our Nation's law enforcement officers. With your 
support, we will fight hard to secure an America where 
criminals find no haven and law-abiding citizens do not have to 
look over their shoulders. This is my pledge to you. Thank you 
for inviting me to testify before the subcommittee today. I 
will be happy to take any questions you may have.
    Mr. Johnson of Louisiana. Thank you, Mr. Hanson, for your 
testimony. We will now proceed under the 5 minute rule for 
questions, and I will begin by recognizing myself for 5 
minutes.
    I am really grateful for the information you provided us 
today. Your written statement was very helpful. The summary 
today is very helpful as well. And I was particularly grateful 
for you bringing up efforts that are being taken to prevent 
fraud, waste, and abuse through the Department's grant-making 
programs. There is a lot of attention being paid to that these 
days, and I think it is appropriate and necessary.
    And as you have noted, the Department needs to take steps 
to increase internal oversight because we have got nearly $10 
billion in OJP programs and active grants. So, the first 
question I had today is something you mentioned in your 
testimony about a thorough pre-award risk analysis that is done 
before any grant is awarded. And I imagine that the pre-award 
risk analysis goes directly to just the initial grant 
recipient. Is that right?
    Mr. Hanson. That is correct, Congressman.
    Mr. Johnson of Louisiana. So, is there any pre-award risk 
analysis of the sub-recipients of those grants? Because I know 
that is a common practice.
    Mr. Hanson. Typically, there is not pre-award assessment of 
the sub-grantees because it is not always clear who those would 
be. However, we do have several measures in place where, of 
course, as you pointed out, we do assess the risk they may 
pose. We give them quite a bit of training with regard to how 
to monitor; we have certain monitoring requirements from them 
during the course of their grant project performance. And then, 
we do provide our own oversight, depending on what we see on 
the ground and through our program managers.
    Mr. Johnson of Louisiana. So, in your view, is all that 
working out pretty well? I mean, is that a sufficient buffer 
for abuses at the sub-recipient level, you think?
    Mr. Hanson. Sub-recipient grantees are a challenge. I think 
we have the structure in place, and a lot of times, it is a 
matter of working more closely with our grantees to properly 
monitor them. I think those efforts could be enhanced. I think 
we are continually learning from, perhaps, past problems and 
enhancing our efforts to monitor those more closely. But, 
again, misbehavior is often just a lack of appropriate 
knowledge or understanding. And really working with the 
grantees and to the extent necessary the sub-grantees to make 
sure they understand what is expected.
    Mr. Johnson of Louisiana. I appreciate that. Does the 
Office of Justice Programs provide grants for overseas 
projects? I think I have read where some of that is going 
overseas. And if so, is it possible for us to get a 
comprehensive list of all of those?
    Mr. Hanson. We will be happy to get you a comprehensive 
list in follow up. I can tell you it is very rare. The only 
examples I am aware of would be some grants into Mexico and 
potentially into Canada. But I would want to look into my 
answer to that. We will follow up with you and get you a 
comprehensive list.
    Mr. Johnson of Louisiana. I could be wrong. I think I read 
somewhere about seminars or programs in Bulgaria and maybe 
Western Europe. I am a little hazy on it, but that is why I was 
asking for the summary. So, that would be helpful.
    Mr. Hanson. Absolutely. We would be happy to provide that.
    Mr. Johnson of Louisiana. So, when those grants or those 
funds are being used overseas or sent to programs like that, 
how does DOJ ensure that grants are being carried out in 
accordance with our law and our values? I mean, is there any 
safeguards in place for that that you know of?
    Mr. Hanson. Yes, it would be the same safeguards that I had 
outlined previously. We closely monitor our grantees. We 
require them to monitor their sub-grantees. We have program 
managers who oversee the programs who also have our financial 
office who provides quite a bit of oversight. We also work very 
closely with the Office of the Inspector General and, at times, 
with the GAO to monitor those.
    Mr. Johnson of Louisiana. All right. So, the Department's 
conducting these routine reviews of the grant recipient's 
finances and progress. You are ensuring that the rigid 
parameters of every grant are continuously met. Let's say that 
you uncovered a discrepancy or, Heaven forbid, some sort of 
intentional fraud or something. At what point would the 
Department require a grantee to pay back an award when waste or 
fraud or abuse is detected?
    Mr. Hanson. That is a potential remedy. We always try to 
work with our grantees so that money is not called back or 
recaptured. It happens on occasion. It begins, first, with, if 
we discover there is a problem, the first thing we do is 
consult with our grantee on how to correct those. We will 
typically or commonly go ahead and freeze the funds at that 
time until we are satisfied that those corrections have been 
made. It would be rare, but it has happened, even in my short 
time at OJP, where we have had to call back some funding.
    Mr. Johnson of Louisiana. I am running out of time quickly 
here, but just as a follow up to that: are there whistleblower 
provisions that apply to all of this? So, if someone is out in 
the field, so to speak, and they see waste or fraud or abuse 
and they report it, is that part of the program?
    Mr. Hanson. It is. Whistleblower protections, certainly, 
within the Department and within the office, yes.
    Mr. Johnson of Louisiana. Got it. Well, I am out of time. 
So, I will recognize the ranking member, Mr. Conyers, for 5 
minutes.
    Mr. Conyers. Thank you very much and thank you for your 
testimony. It has been helpful to us, and we want to stay in 
contact as we continue to work through what we are drawing out 
of the hearings today. With reference to the Community Oriented 
Police Services and about police militarization, what is the 
status of the interagency working group on lending Federal 
military equipment?
    Mr. Hanson. As you mentioned, we have a permanent working 
group on law enforcement equipment. In the past couple of 
years, they made some recommendations that were implemented 
under the prior administration. We have heard some level of 
concern from stakeholders in that regard, and we have recently 
reconvened that permanent working group to sort of reassess and 
look at sort of the parameters of what that equipment's desired 
to be used for, and what equipment may be proper to supply to 
given law enforcement agencies.
    Mr. Conyers. Now, does the interagency working group 
prescribe policies and practices for State and local law 
enforcement use of federally-resourced military weapons and 
equipment?
    Mr. Hanson. The working group does set policies and 
parameters for the appropriate use, yes, Congressman.
    Mr. Conyers. And is it operating fairly well or okay? How 
would you describe what is happening there?
    Mr. Hanson. I think we feel like it is working well. 
However, like I said, there have been some stakeholder concerns 
expressed in the past couple years. And so, that permanent 
working group continues to assess, particularly in light of the 
new administration, how best that law enforcement equipment can 
be supplied.
    Mr. Conyers. Does the interagency working group prohibit 
certain federally-resourced military weapons and equipment for 
use by State and local law enforcement, if you know?
    Mr. Hanson. That is correct. There are certain limitations 
on the use of that equipment, yes.
    Mr. Conyers. Do any come to mind that you would like us to 
know about?
    Mr. Hanson. The only one that I remember, because I said it 
on the initial part of one meeting, was essentially a tracked 
armored vehicle, so essentially a tank. I know there is some 
limitations on that. Others, I would have to check and get back 
to you.
    Mr. Conyers. Well, make the check, and if there is, please 
add it to our record.
    Mr. Hanson. Be happy to do so.
    Mr. Conyers. And finally, what is the status of the 
implementation of the Death in Custody Reporting Act?
    Mr. Hanson. DCRA was enacted relatively recently. And now 
we have, since the year 2000, been compiling death and custody 
statistics through the FBI and Bureau of Justice Statistics. 
However, DCRA has changed the parameters of how that 
information is collected, required to be collected from the 
States. We have been working on that since the enactment. The 
Federal plan for doing so is still being developed. And then, 
of course, we will have to work with our partners in the State 
to collect that information.
    Mr. Conyers. And finally, which office within the Office of 
Justice Programs is overseeing DCRA implementation?
    Mr. Hanson. Yes, that has been part of the ongoing planning 
for compliance with DCRA. However, currently, plans are 
pointing to the Bureau of Justice Assistance for doing so.
    Mr. Conyers. Finally, how is DCRA implementation being 
coordinated with other Department of Justice data collection 
efforts around police community encounters, including the FBI 
Use-of-Force Database and the Community Oriented Policing 
Services, which was formerly in the White House Police Data 
Initiative?
    Mr. Hanson. As we continue to compile and set forth our 
efforts in collecting that data, I do know that we are 
leveraging all the statistical resources within the Department. 
So, FBI, Bureau of Justice Statistics do that now, and the 
Bureau of Justice Statistics is, as of now, expected to head up 
that effort.
    Mr. Conyers. Thank you very much. And, Mr. Chairman, Judge, 
I yield back.
    Mr. Gohmert. Thank you. It is still hard not to call you 
Mr. Chairman, you were for so long. But thank you. At this 
time, we will recognize the gentleman from Ohio, Mr. Chabot, 
for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. And thank you for 
being here, Mr. Hanson. Just a few questions. First of all, we 
obviously see far too many officers killed across the country 
in the line of duty every year. What steps is the Department 
taking to prioritize the safety of our law enforcement officers 
all across the country?
    Mr. Hanson. Well, in addition to the executive order that 
the President issued very early in his term calling for our 
efforts to protect law enforcement, I think those priorities 
are reflected in the budget request for fiscal year 2018.
    As I also mentioned, the Attorney General has created a 
task force of crime reduction. And within that task force, 
there is a subcommittee specifically devoted to, as we call it, 
back the blue. And that is particularly to protecting and 
promoting the safety and wellness of law enforcement officers. 
Within the numerous programs that we have within OJP and COPS 
and OVW, to a lesser extent, to protect the police, one, in 
particular, highlight is the Bauer Initiative.
    And that is a five-part program looking at a variety of 
areas that we can assist law enforcement officers. Providing 
office safety and wellness training, active shooter response 
training, de-escalations training and technical assistance, 
officer safety and wellness programs to hopefully drive police 
fatalities to zero, and also a research and evaluation program.
    Mr. Chabot. Thank you. As a long time member of this 
committee, 20-plus years now, I want to commend the President 
on the emphasis that he is putting on keeping our brave men and 
women in uniform across the country to be as safe as possible. 
It is a very dangerous job. We have had far too many killed 
over the years. I have been to far too many of the candlelight 
ceremonies here in Washington and also too many funerals back 
in my district in the city of Cincinnati over the years, too. 
So, I want to commend him for that and urge him to keep his 
attention on this issue.
    Let me move on to a couple of other things really quickly. 
During the last hearing, I had asked about the body-worn 
cameras and the pros and cons associated with officers wearing 
such devices. What are the eligible uses for grant awards in 
support of body-worn cameras?
    Mr. Hanson. Within our body-worn camera program, that could 
also be funded with Bureau of Justice Assistance Grant Program 
as well. We provide for, obviously, acquisition of equipment, 
so actual body cameras, as well as policies and procedures for 
their use, implementation, and technology associated with that.
    Mr. Chabot. Thank you. When I first came here, again, a 
long time ago, President Clinton was in office and he had 
pushed the COPS program, which a number of Republicans, 
including myself, had taken a look at in general support of, 
although we had some concerns.
    One of the concerns we had was that it put some cities in 
the position where they would hire folks for a couple of years 
with Federal dollars. And then, unfortunately the dollars went 
away after a couple of years, and the cities could not 
necessarily afford to keep them on; people got laid off. Would 
you want to comment on that? And have we done anything to 
address that issue?
    Mr. Hanson. I believe so. I mean, as I am sure you know, 
the program is designed such that we do provide Federal 
resources for the first few years, with the understanding and 
requirement that the local jurisdiction maintains, does not 
simply lay off. Obviously, there are challenges, fiscally and 
otherwise, in local jurisdictions. And I would not be able to 
speak authoritatively, but I do know we try to work with local 
jurisdictions to ensure they are complying with the 
requirements of the program.
    Mr. Chabot. Thank you. The President has been outspoken on 
making sure that our local communities are complying with 
Federal law with respect to enforcing our immigration laws, and 
it has been a fairly controversial topic in some cities and 
States across the country. Would you want to comment on if 
communities declare themselves sanctuary cities, what impact 
that might have on Federal funding?
    Mr. Hanson. Yes, particularly within the Department of 
Justice. So, simply declaring that they are a sanctuary 
jurisdiction in of itself might trigger suspicion, but it would 
not immediately trigger action on our part. In accordance with 
the Attorney General's grant funding memo of May 22nd, we are 
looking particularly at three grant programs administered 
through the Department of Justice. That is the COPS program, 
the Byrne JAG Program, as well as Scat Payments, particularly 
where we are going to require jurisdictions to certify that 
they are in compliance with 8 U.S.C. 1373 as a condition of 
receiving any grant funding under those programs.
    Mr. Chabot. Thank you. And as my time is wrapping up, let 
me just comment on one final thing. The opioid addiction and 
deaths as a result has been a tragedy all across the country, 
including my State and Cincinnati. And I saw a figure the other 
day that said that, back in 1980, I think, there were about 
10,000 deaths nationwide due to overdose on drugs. And that has 
gone from 10,000 to almost 60,000 last year. Would you want to 
comment? And Mr. Chairman, if you will give me an additional 30 
seconds, I would greatly appreciate it.
    Mr. Gohmert. Without objection.
    Mr. Chabot. Thank you very much.
    Mr. Hanson. That is a priority of this administration and 
this Attorney General. Under the comprehensive Addiction and 
Recovery Act, we have created the Opioid Addiction Program. 
Significant resources are being devoted in fiscal year 2017 and 
requested for fiscal year 2018, in addition to other resources 
of well over a total of over $100 million devoted particularly 
to addressing that crisis and hopefully creating an environment 
where folks either choose not to become addicted to opioids or 
assist them in becoming free of that scourge.
    Mr. Chabot. Thank you, Mr. Hanson. Thank you, Mr. Chairman. 
I yield back.
    Mr. Gohmert. Thank you. The gentleman from New York, Mr. 
Jeffries, is recognized for 5 minutes.
    Mr. Jeffries. I thank the distinguished chair as well as 
the witness for your presence and your testimony here today. I 
want to pick up where my distinguished colleague from the great 
State of Ohio left off on the sanctuary cities conversation. 
Mr. Hanson, I assume you are familiar with President Trump's 
executive order entitled ``Enhancing Public Safety in the 
Interior of the United States?''
    Mr. Hanson. I am.
    Mr. Jeffries. And section 9(a) orders the Attorney General 
and the secretary to ensure that jurisdictions that willfully 
refuse to comply with 8 U.S.C. 1373, so-called sanctuary 
jurisdictions, are not eligible to receive Federal grants. Is 
that right?
    Mr. Hanson. Yes, that is correct.
    Mr. Jeffries. Now, in the previous fiscal year, New York 
City, so-called sanctuary jurisdiction, received $4.3 million 
in Byrne Justice Assistance Grant funding that it could lose 
under this order. Is that right?
    Mr. Hanson. That is correct.
    Mr. Jeffries. And on Friday the 21st, as I believe you just 
testified, the Department of Justice sent a letter to New York 
City and maybe other cities asking New York City to demonstrate 
its compliance with section 1373. Is that right?
    Mr. Hanson. That is right. That was April 21. That was a 
reminder letter of the requirements to do so, yes.
    Mr. Jeffries. Okay, but are you aware that Federal courts 
have found that policies that limit or prohibit compliance with 
immigration holds and requests for relief do not violate 
section 1373?
    Mr. Hanson. I am aware of ongoing litigation surrounding 
the sanctuary cities issue. I am not sure if I understand that 
particular limitation you described.
    Mr. Jeffries. Okay, well, let's go through some of the 
jurisprudence that exists. According to the United States 
district court, northern district of California, in the Stanley 
v. City and County of San Francisco case, section 1373 only 
prohibits the enactment of certain policies about sharing 
immigration status information. It does not command the States 
or cities to administer or enforce Federal law. Was that the 
holding of that decision?
    Mr. Hanson. I will be honest. I did not read the entire 
decision, but that is my understanding of it, yes.
    Mr. Jeffries. Okay, and the Third Circuit, Pennsylvania, 
New Jersey, I believe the Virgin Islands, in the Galarza 
decision, I believe, held immigration detainers do not and 
cannot compel a State and local law enforcement agency to 
detain suspected undocumented individuals subject to removal 
and courts holding; electing not to respond to them is entirely 
in the discretion of local law enforcement. Is that your 
understanding of the Third Circuit's decision?
    Mr. Hanson. Again, I have not read that opinion, but that 
is my understanding.
    Mr. Jeffries. Okay, now, are you familiar with the Supreme 
Court's case in Arizona v. the United States?
    Mr. Hanson. If you mean from a few years back, I am.
    Mr. Jeffries. That is correct. And that decision held 
nothing in Federal law requires localities to enforce 
immigration laws and regulations. Correct?
    Mr. Hanson. Yes, that is my understanding.
    Mr. Jeffries. And I assume you are familiar with the 10th 
Amendment?
    Mr. Hanson. Yes, also yes.
    Mr. Jeffries. And the 10th Amendment precludes the Federal 
Government from coercing State or local governments to use 
their resources to enforce Federal laws or regulations like 
immigration. Is that correct?
    Mr. Hanson. That is certainly a fair interpretation of 
that, yes.
    Mr. Jeffries. And that is a concept known as the anti-
commandeering doctrine, correct?
    Mr. Hanson. Yes.
    Mr. Jeffries. And the Supreme Court has continuously upheld 
the anti-commandeering doctrine, correct?
    Mr. Hanson. I believe that is correct, yes.
    Mr. Jeffries. In fact, Justice Scalia, may he rest in 
peace, who was, obviously, a conservative--I am a progressive, 
but had great respect for his legal mind. When he struck down, 
in Prince v. United States, key provisions of the Brady Bill, 
stated, ``It is an essential attribute of the States' retained 
sovereignty that they remain independent and autonomous within 
their proper sphere and that they should not be,'' his words, 
``dragooned''--very creative--``dragooned into administering 
Federal law.'' Are you familiar with that decision?
    Mr. Hanson. Yes. Yes.
    Mr. Jeffries. Chief Justice Roberts, again, conservative, I 
am a progressive Democrat, Supreme Court decision in NFIB v. 
Sebelius, which struck down a few provisions of the Affordable 
Care Act, noted that, ``If you forbid funding conditions that 
are so coercive they amount to a gun to the head of the State 
or local government and that is inconsistent with Federal law 
or the Constitution.'' Correct?
    Mr. Hanson. Yes, I recall that ruling.
    Mr. Jeffries. And so, I guess, in closing, my time has 
expired, I cannot understand why the Department of Justice, 
which is the entity that should administer the law, faithfully 
execute, as well as the Constitution, can conduct themselves in 
this fashion.
    Notwithstanding clear judicial precedent from the Article 
III branch of the government to the contrary, including 
decisions written by some of the greatest conservative, legal 
scholars ever to exist in this great Republic. And I would 
hope, not that you would listen to the voices of those of us on 
this side of the aisle, but listen to those who have 
consistently articulated decisions anchored in the valued 
precedent of federalism in this great country. I yield back.
    Mr. Gohmert. I thank the gentlemen and especially the 
shout-out to federalism. At this time, I recognize the 
gentlelady for Alabama, Mrs. Roby.
    Mrs. Roby. Thank you very much. Hello, Mr. Hanson.
    Mr. Hanson. Hello, Congresswoman. Pleasure.
    Mrs. Roby. Good to see you here. Congratulations on your 
new position as acting assistant attorney general for the 
Office of Justice Programs. So, thank you for being here today. 
Two things I wanted to talk about: missing and exploited 
children programs. Congress has provided an average of $70 
million a year for the past 3 years for these programs. And I 
wanted to just hear from you maybe a breakdown of how the 
Department of Justice intends or has allocated this funding. 
This is something very important to me.
    When I joined this committee and this Congress, I made it 
clear that I wanted to focus a lot of my energy and attention 
to missing and exploited children's programs, as well as human 
and sex trafficking issues across the board. We have recently 
passed the Global Child Protection Act and some other really 
important pieces of legislation that we have worked directly 
with DOJ on, so that we can continue to advocate and fight for 
the victims of these horrific crimes. And so, if you could just 
talk a little bit about that funding and anything you want to 
add as it relates to funding in the fiscal year 2018 as well.
    Mr. Hanson. Sure. Well, thank you for that question. 
Exploitation of children is a very serious issue for all of us 
and certainly for our Attorney General. The Department, as you 
pointed out, has committed significant resources over the years 
and that commitment continues on our fiscal year 2018 budget 
request. And a large portion of that funding will go to the 
National Center for Missing and Exploited Children for a 
variety of programs that it runs to both help children who have 
been exploited or abducted in some way and also to prevent 
that.
    We have a number of other programs looking at internet 
crimes against children and other grant programs. So, very 
significant funding to help not only, hopefully, prevent those 
crimes, but then also assist them if they are victims of them. 
I do not have it with me, but a comprehensive breakdown of that 
spending, we would be happy to get it to you.
    Mrs. Roby. Well, I appreciate that. And please know that 
you have very willing partners here. There are horrible abuses 
that are taking place not just globally, but right in our own 
backyard. And I know you are aware, but even in our State of 
Alabama, it has been brought to our attention about the 
corridor between Birmingham and Atlanta and what is going on 
right there. And I think the more we talk about it, as hard as 
it is to talk about these terrible things that are being done 
to children, we need to make sure that we are doing our part to 
educate others about what is going on right here in our own 
country as well.
    So, please know that I look forward to continuing to work 
with the Department on these issues and looking for 
opportunities to combat these horrible crimes.
    I want to go back to what the gentleman from Ohio was 
talking about with opioid abuse. This, too, has become an 
epidemic. It is an epidemic in our country. The more I read and 
learn about what is going on, we have to continue to do all 
that we can as members of Congress to make sure that the 
resources are available. We did so, as you mentioned with the 
Comprehensive Addiction Recovery Act, CARA. But I just wanted 
to know the conversations that you are having in the Department 
with stakeholders, who those stakeholders might be.
    And then, also the issue of pilfering. There was some 
grants that were to be made available to deal with this issue 
on the locking mechanism of the pills that may be in a cabinet 
where a child or anyone would have access to. So, if you could 
just maybe expand a little bit on that issue; that would be 
great.
    Mr. Hanson. Sure. So, as I mentioned to Congressman Chabot, 
we are proposing in fiscal year 2018 $20 million or so 
particularly to a number of grants. Looking to help local 
communities to develop systems, processes, ways of assisting 
addicts as well as, of course, a number of other resources with 
drug courts, intervention counseling that can be leveraged for 
that purpose as well. You talked about the, I think, the secure 
pill bottle program. That is something that could be funded. We 
do not have a solicitation specific to that, but that is 
something that could be funded through one of our co-op grants. 
And I suspect we would see some proposals to that effect, and 
we will certainly give them very serious consideration.
    Mrs. Roby. Sure. And I appreciate that as well. And I mean, 
of course, that is just one example amongst many that these 
very precious dollars could be used to help combat, again, this 
epidemic, this very serious epidemic in our country. Thank you 
again for your service. Glad to see you here today, and I yield 
back.
    Mr. Hanson. Thank you.
    Mr. Gohmert. At this time, I will go ahead and recognize 
myself for 5 minutes and try not to duplicate anything else 
because one of the things we are hoping that is going to be 
done by the DOJ is cut out a lot of the duplication that has 
occurred over the years. And I, probably more than most, 
recognize the difficulties this DOJ will have because of what 
has gone on before us.
    I have been down on the Texas-Mexico border all hours, many 
nights. And our Border Patrol open up and talk a bit in the 
middle of the night. And what I have seen over and over in 
talking to them is, as was shared one night, I was asked, ``Do 
you know what the drug cartels call Homeland Security?'' ``No. 
What?'' ``They call us logistics, like the commercial. The drug 
cartels say all we have to do is get our future employees 
across the border, and then Homeland Security ships them 
wherever we want them to go.''
    I have been there numerous times when, as the officers go 
through their questions, they add a question that many of them 
want to know. ``How much did you pay the gangs, the drug 
cartels to get here?'' And it was often 5, 6, 7,000-8,000. 
``You do not have that money. Where did you come up with that 
money?'' And this was usually in Spanish, and I would have 
somebody helping me. But the response would be, ``Oh, we got 
$1,500, $2,000 from friends in America, $1,000 here and $1,000 
there.'' ``Well, what are you doing for the rest of it?'' 
``They are going to let me work it off when I get to the city 
where I am going.''
    They had employees paying the drug cartels to let them be 
employees for free in cities all over America. So, while we are 
spending millions of dollars through DOJ trying to help local 
law enforcement, at the same time, we were using Homeland 
Security money to ship future criminal agents and some of them 
in desperate situations, whether it was sex trafficking or 
drugs.
    So, it seems like some of the money DOJ is now going to be 
spending is going to be having to help communities deal with 
what we did to them in recent years. So, let me ask you: can 
you tell a little more about the National Summit on Crime 
Reduction and Public Safety? How is that going to help these 
situations?
    Mr. Hanson. Well, the upcoming summit, which is being 
conducted in the auspices of the National Crime Reduction Task 
Force created by the Attorney General, is going to bring 
together a large group of stakeholders, community groups, crime 
groups, law enforcement, and prosecutors throughout the 
country.
    And the idea is to bring them together and talk about 
different strategies and things they are doing to combat crime 
in their area and, hopefully, sort of share best practices with 
each other, so that each jurisdiction and different group can 
learn from the other and combine their knowledge and, 
hopefully, create strategies that we can disseminate nationally 
to fight crime, including the sorts of problems that you have 
described.
    Mr. Gohmert. And have you worked personally, directly with 
any law enforcement in States and local governments?
    Mr. Hanson. I have not had occasion to interact with a 
number of them. I have not. Of course, I have only been on 
board about four and a half months. But I have had the 
opportunity to talk to many law enforcement officers, and I can 
tell you that what we are hearing is across the board just the 
breath of fresh air they feel coming from this Attorney General 
and this administration about getting tough on crime in their 
jurisdiction and the things they are dealing with.
    Mr. Gohmert. Yes. And hopefully not shipping any more 
people to their locales that they are going to end up having to 
deal with.
    Mr. Hanson. I can tell you that you have got an Attorney 
General that is absolutely committed to ending illegality at 
the border and stopping those people there, prosecuting them 
there, and then sending them back.
    Mr. Gohmert. And I hope you know you do not have to tell 
me. I consider Jeff Sessions to be a dear friend and just a 
wonderful person. Well, one of the things that Mr. Jeffries has 
expressed as a concern, and it is certainly a concern of mine. 
I know it was a concern of Senator Jeff Sessions, and I am sure 
yourself. We do. We send out money and often over the years it 
has been, so we can put strings on it and dictate local 
control.
    Now, I know Attorney General, I was so pleased that he 
ended some of the consent decrees, which appeared, to me, to be 
a takeover of local law enforcement by the feds; or as Mark 
Levin says, ``federalizing local law enforcement.'' Can you 
tell us any more about that working relationship with 
communities that have perhaps had problems, consent decree has 
been removed? Are we working with them to help them with money 
to get their systems up and working appropriately as law 
enforcement?
    Mr. Hanson. We are. It is our job, particularly in the 
grantmaking components of the Department, to get this money to 
law enforcement officers and agencies, so they can use it to 
reduce crime, promote public safety, and, of course, protect 
the well-being and safety of their officers. We always work 
with jurisdictions to make sure they are in compliance with 
whatever grant conditions may exist. It is not our job to deny 
them funding. It is to make sure that they fulfill the 
requirements to receive it.
    Mr. Gohmert. Well, my time has expired. I am going to see, 
did the gentleman from Louisiana or the gentlelady from Alabama 
have any further questions? All right.
    Then, Mr. Hanson, we do not always get an opportunity to do 
this, but you are the sole witness today, and you have had 
great questions from both sides of the aisle. Sometimes you do 
not completely respond or think of other things that you might 
wish to say maybe to expand on comments that were already made. 
What would you say is the most important takeaway that this 
committee should have from this hearing today?
    Mr. Hanson. I just want you to know that we are here to 
work with you, our authorizers and Congress, to combat crime, 
to promote public safety, and protect our law enforcement 
officers. And, as has been pointed out in a number of the 
statements today, sometimes there is duplication in programs; 
some different programs become outdated and need for 
flexibility.
    We are here to work with you and to get your thoughts on 
the best way forward to, again, pursue those policy priority 
areas set out by the A.G. and the President. And I would also 
say that there is no need or concern about commandeering local 
law enforcement officers. We are here to work with them as a 
partner and not to direct them or tell them what to do.
    Mr. Gohmert. Anything further from prior answers that you 
wish to expand on or you thought of since that you wanted to 
add?
    Mr. Hanson. Well, I will just add just a little bit to my 
exchange with Congressman Jeffries. The way forward on the 
sanctuary grant funding determination in accordance with the 
Attorney General's memo from May 22nd is just to look at three 
grant programs. They were actually identified last year with 
regard to 1373 compliance. All jurisdictions were placed on 
notice in fiscal year 16 and agreed that compliance with 8 
U.S.C. 1373 would be a condition of receiving that grant. And 
so, we are simply carrying that policy forward. There is no 
attempt to commandeer or otherwise deny grant funding except 
that, as a grant condition, jurisdictions must comply with all 
applicable Federal laws and are on notice that 8 U.S.C. 1371 is 
one of those applicable laws.
    Mr. Gohmert. Thank you. Of course, one of the concerns that 
is expressed in local jurisdictions. Yeah, we award this grant 
money and people hear the total amount, you know, whether it is 
$70 million, whatever it happens to be for a particular 
program. And yet, normally, it is not pointed out that salaries 
usually come out of that amount at DOJ to implement the money 
that goes to the local jurisdictions.
    And in a different committee yesterday, we were hearing 
from part of the Department of Interior that they were running 
about 25 percent as administrative costs. And as I pointed out 
to them, if they were in the private sector, they would be 
fired and never be allowed to touch money again. But being they 
are in the government, 25 percent may be deemed not that 
unreasonable; I think it is. But, what do you see the 
Department of Justice doing to minimize the amount of money 
necessary to pay for salaries and administrative costs at DOJ, 
so that more can go to the locales that actually need it?
    Mr. Hanson. It is a priority of ours to concentrate the 
resources Congress makes available to us to the State and local 
law enforcement agencies who are our partners. As such, we try 
to minimize the overhead, for lack of a better term, that is 
taken out of us. We do not receive at OJP any direct 
appropriation for management or administration.
    Therefore, we do have to take the funding salaries and 
other costs out of the grants. However, we consistently keep 
that below 8 percent. And I believe we proposed for fiscal year 
2018 about 7.7 that is drawn across the board from most, but 
not all of the grant programs. So, not even all the programs we 
administer to we take that 7.7 percent drawdown from them.
    Mr. Gohmert. Our hearing is basically coming to a 
conclusion. But I wanted to take a point of personal privilege 
and point out that I do not know of anybody else in our 
committee during the years that President Bush was in office 
and the person he chose as the Director of the FBI, Robert 
Mueller, was the FBI Director. But I had numerous exchanges 
with Director Mueller. He had his 5-year up-or-out program.
    For most people that have dealt with Federal law 
enforcement, they know from a local standpoint that it normally 
takes 5 years for a State and local law enforcement group to 
feel comfortable with a Federal agent. As they come in or they 
come in and they are in a special agent in charge supervisory 
position, often the feeling is, ``Okay, is this going to be one 
of those guys that takes all our work and runs and does the 
press conference? Or are they actually going to be a partner?''
    Five years, you know what you have got. You know you have 
got partners. And we had incredible, experienced FBI agents all 
over the country doing phenomenal work. In his 5-year up-or-out 
program, when you are a supervisor for 5 years, you either got 
to get out or come to Washington. And so, many of them thought, 
``I am not coming to Washington and being a yes-man, you know, 
a minion. I would rather stay here. I can make more money. I 
wish I could stay in the FBI and continue to work, even though 
a lesser salary.''
    And as, I think the Wall Street Journal pointed out, we 
lost thousands and thousands of years of experience in the FBI. 
I felt like Director Mueller basically gutted the FBI of so 
much experience. And if you are looking for a bunch of yes-men, 
then the less experienced the better.
    But I would just encourage you and our Attorney General, 
you know, use those assets. Let's build it back from what 
Director Mueller brought it down to. We got a lot of work to 
do. And I am grateful for the people that are still there with 
experience, but it is going to make your job harder. So, I 
appreciate your being here today. I know it is not fun 
testifying except for the bonus check you get for coming.
    And not everybody in government appreciates sarcasm, but 
the witness is not receiving any remuneration for testifying. 
But without objection, all members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record. Hearing nothing further, 
our meeting is adjourned. Thank you, Mr. Hanson.
    Mr. Hanson. Thank you.

                                  [all]



</pre></body></html>
